<html>
<title> - GUO FEIXIONG AND FREEDOM OF EXPRESSION IN CHINA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                       GUO FEIXIONG AND FREEDOM 
                         OF EXPRESSION IN CHINA
=======================================================================


                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,

                        GLOBAL HUMAN RIGHTS, AND

                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2013

                               __________

                           Serial No. 113-102

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
85-314                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Zhang Qing, wife of Guo Feixiong.............................     5
Ms. Yang Tianjiao, daughter of Guo Feixiong......................    14
Mr. Chen Guangcheng, Chinese human rights activist (appearing via 
  videoconference)...............................................    18
Pastor Bob Fu, founder and president, ChinaAid Association.......    24
Mr. T. Kumar, director of international advocacy, Amnesty 
  International..................................................    32

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Zhang Qing: Prepared statement...............................     8
Ms. Yang Tianjiao: Prepared statement............................    16
Mr. Chen Guangcheng: Prepared statement..........................    21
Pastor Bob Fu: Prepared statement................................    27
Mr. T. Kumar: Prepared statement.................................    34

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53


            GUO FEIXIONG AND FREEDOM OF EXPRESSION IN CHINA

                              ----------                              


                       TUESDAY, OCTOBER 29, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:30 p.m., 
Room 2255, Rayburn Building, Christopher Smith (chairman of the 
subcommittee) presiding.
    Mr. Smith. Let me begin by expressing my apologies for the 
delay. We had a series of votes before the House. Thank you for 
being here and thank you to our very distinguished witnesses on 
behalf of Mr. Stockman and I and other members of the 
subcommittee. Thank you for your extraordinary sacrifice that 
you bear on behalf of human rights. We so deeply appreciate it 
and respect it.
    Today's hearing will focus on China's detention of writer, 
activist, and self-trained legal advocate Guo Feixiong. A 
veteran of China's rights defense movement, Mr. Guo was 
criminally detained on August 8, 2013 which I would note 
parenthetically, it is Baba, or Chinese Father's Day. I know 
Ms. Yang would love to be with her father and yet on that very 
day he was taken away by the security apparatus of the Chinese 
Government. We know that he wasn't formally arrested until 
early September 2013. Mr. Guo's detention appears to be a 
reprisal for his support of government transparency and calls 
for accountability. In recent months, Beijing has cracked down 
harshly on dozens of similarly minded advocates seeking 
political reforms.
    Mr. Guo is not a newcomer to public advocacy nor to 
suffering, punishments and sacrifice for his work. A former 
novelist and businessman, he first became widely known in 2005 
for organizing protests of land seizures on the outskirts of 
Guangzhou. In 2007, a Chinese court sentenced the outspoken Mr. 
Guo to 5 years' imprisonment on charges of illegal publishing. 
He and his supporters maintain the charges were fabricated to 
silence him and to silence the others. In late 2011, he was 
released. Since that time, he has continued to participate in 
China's rights defense movement. He has continued to express 
himself freely in the hopes of advancing human rights. He has 
protested along reporters fighting the Southern Weekly's heavy-
handed censorship and vocally supported recent calls for 
greater government transparency and an end to corruption.
    Now, Mr. Guo is being held on charges of ``assembling a 
crowd to disrupt order in a public place.'' This alleged crime, 
along with many others, is all too often employed unjustly 
against the courageous men and women who want accountability or 
are pressing for change. For simply asking for transparency, he 
is suspected of disrupting the harsh order that Beijing 
enforces. Notwithstanding China's own criminal procedure rules, 
authorities have denied Mr. Guo access to a lawyer and have 
failed to properly notify his family. Once again, China 
continues to enforce its legal protections haphazardly, if at 
all, when punishing or silencing those who advocate for reform 
and change.
    Today's hearing is on the heroism and the sacrifices of Mr. 
Guo--that's what we are focusing on; this brave man needs to be 
lifted up. The United States Congress is focusing and 
expressing its profound respect as well as for his family. 
Sadly, Mr. Guo is one among many who are suffering in China 
today. In recent months. Chinese authorities have cracked down 
on dozens of human rights advocates participating in a so-
called New Citizens' Movement. The movement, which began 
forming last year, has been described as a loose network of 
like-minded academics and lawyers who hold informal gatherings 
and promote various issues, including transparency and anti-
corruption efforts.
    These detentions signify Chinese citizens' growing resolve 
and Beijing's growing fears. Mr. Guo, and many others 
throughout China, want and deserve change. They want 
accountability, they want transparency, and they want basic 
human rights and respect for those rights and they want 
justice. And, increasingly, they are willing to endure even 
greater risks and willing to sacrifice their own personal 
security to speak freely.
    We are fortunate today to be joined by Ms. Zhang Qing, Mr. 
Guo's courageous wife, and Ms. Yang Tianjiao, his wonderful 
daughter. We look forward to their testimony, their insights, 
and their defense of a beloved husband and father. We are also 
blessed to have with us two giants in the human rights field, 
Pastor Bob Fu and Mr. Chen Guangcheng, who will be speaking to 
us via Skype. He was supposed to be here personally, but was 
not feeling well enough to be here. We are also joined by Mr. 
Kumar, himself a political prisoner who suffered for his 
beliefs so many years ago and has been a frequent, very 
significant contributor to our efforts on the committee and for 
the Congress itself.
    With this current crackdown on Chinese human rights 
activists, it is important to understand the brave and bold 
people challenging the Chinese state. And they are doing it in 
a nonviolent and in a benign way, and yet they are harshly 
retaliated against. Inspiring figures like Mr. Guo put another 
heroic face on these detentions. His face, however, does more 
than just contextualize the current crackdown or add details to 
a prisoner file. It causes us to wonder about ourselves, about 
our commitment to human rights, and the risks we are willing to 
take for those around us and in persecuted countries like the 
People's Republic of China. Mr. Guo now faces an uncertain 
punishment, and we must determine our own human rights 
commitment to him and others.
    In July 2013, Mr. Guo wrote about a 1989 Tiananmen activist 
now facing the possibility of more prison time. He wrote that 
``Zhao Changqing is an important symbol of the 1989 generation, 
who, in the face of danger, takes action, bears responsibility, 
persists, pushes forward, and becomes more involved. This is 
how one should behave and shoulder his fate.''
    Despite the hardships and the odds, Mr. Guo reminds us that 
we, Members of Congress living in the safe harbors of the West, 
must shoulder our responsibilities and our burdens. Far too 
often, we don't. We are here today to accept our responsibility 
to Mr. Guo and other courageous Chinese human rights advocates. 
We hope that we also in his words will ``take action, bear 
responsibility, persist, push forward, and evolve'' like these 
heroes. He reminds us that this is how we all should behave.
    We hope that the Chinese Government is listening. We hope 
the Chinese citizens seeking change are listening. And we hope 
Mr. Guo is listening. We hope President Obama and our 
administration are listening as well and will everything in 
their power to help free Mr. Guo and others fighting for human 
rights. We hope the U.S. Congress is listening, so that he will 
be freed and be out of that terrible, terrible gulag state.
    I would now like to go to Mr. Stockman for any opening 
comments you may have.
    Mr. Stockman. I want to thank the chairman for putting this 
together and as I said to the television cameras, the Chinese 
Government would have greater respect from the people if they 
respected the people. And the fact that they are continually 
suppressing their own people--severely, according to 
independent reports--and are increasing the persecution of 
their own citizens. This is the wrong direction to go.
    I think that prior to the Olympics, they were trying to be 
more open and more receiving of people's inputs. But since the 
Olympics, it seems like there is an increase of persecution in 
China and we, as congressmen, need to speak out and support 
those that are being persecuted. I thank the chairman again for 
offering this hearing for us to put a highlight on exactly what 
is going on in China.
    Mr. Smith. Mr. Stockman, thank you very much. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, it is good to have 
you here, good to see many of you again. And as we look at this 
particular case, highlighting this case, I think what the 
American people need to hear, and quite frankly, what the world 
needs to hear is the injustice that we see, not only in the 
case of Mr. Guo, but really in terms of human rights in general 
in China.
    I was part of a briefing just the other day as we started 
to look at the freedom of expression and how the story is not 
getting told and it is being subtly and at times not so subtly 
hidden from the citizens of China and from the rest of the 
world. According to World Press Freedom Index, China ranks 
173rd about of 179 countries in terms of free press. That is a 
statistic that is unacceptable for a world leader and for a 
member of the U.N. Security Council.
    And as we see the great reforms that have been promised as 
part of the 2012 elections, yet we hear today and we will hear 
today how those reforms have yet to take place. And so while 
these matters may be inherently an internal issue for China, as 
members of the United States Congress, it is our duty to expose 
the challenges that the Chinese citizens face and urge the 
government to implement the necessary reforms.
    I want to thank the chairman for his unrelenting effort on 
behalf of people that perhaps have no voice other than his to 
stand up for human rights and I am proud to join him arm in arm 
to fight that battle. And with that, I yield back, Mr. 
Chairman.
    Mr. Smith. Mr. Meadows, thank you very much. We are joined 
by a member of the Congressional-Executive Commission on China 
and distinguished member of the House of Representatives, Mr. 
Pittenger, who is here because of his deep concern for human 
rights in China, as well as the rest of the world, and 
religious freedom in particular.
    Mr. Pittenger.
    Mr. Pittenger. Thank you, Mr. Chairman, and thank you for 
your dedication as I have observed you the last 30 years. You 
have been a remarkable leader for the cause of human rights and 
religious liberties.
    We gave up a lot in the late 1990s when we gave up Most 
Favored Nation trading status and we no longer have leverage on 
human rights and religious liberties. I regret we did that. 
There was a lot of business pressure and response to that. But 
nonetheless, you all have fought a valiant war. I have been 
over there a number of times and I am back there in January. We 
will do everything to support your efforts of very dedicated 
people who want to present the gospel in a fearless way. So God 
bless you for your service. I know that there are many here who 
pray for you and support you in your work. And only eternity 
will know the life that you have lived and what you have fought 
for and what you commit yourself to. Thank you.
    Mr. Smith. Mr. Pittenger, thank you so very much for you 
eloquence and to all of my colleagues for their steadfast 
support for fundamental human rights and for being so 
consistent. It is just so admirable and so encouraging.
    I would like now to introduce our distinguished witnesses 
beginning first with the wife of Mr. Guo, Zhang Qing. She is a 
political asylee from China. In 2006, after her husband was 
arrested and badly tortured, she wrote open letters to the 
President of China and to President Bush to expose the 
brutality and torture that was happening to her husband. She 
also called for human rights organizations and the media to 
recognize and consider Chen Guangcheng's case while he was in 
jail. She and her husband's activities caused her to endure 
sustained pressure so she came to the United States. She now 
lives in Mr. Stockman's state, the great State of Texas and is 
a full-time university student there. And thank you for being 
here. I look forward, along with my colleagues, to your 
testimony.
    We will then hear from Ms. Yang Tianjiao who is the 
daughter of Guo Feixiong. She came to the U.S. 4 years ago and 
is now a high school student in Texas where she won the 
President's Education Award for outstanding academic excellence 
in 2010. She loves music and art. She has drawn pictures of her 
father and composed a piano piece to express her hope that he 
can gain freedom in China. And we thank her for coming forward 
to speak out in defense of her dad.
    We will then hear from Mr. Chen Guangcheng via Skype who 
would have been here, but was not well enough to travel. As we 
all know he is a valiant Chinese human rights activist who 
worked on a variety of human rights issues especially the 
forced abortion issue. Blind from an early age and self taught 
in the law, Mr. Chen is frequently described as a barefoot 
lawyer who advocated for victims of forced abortion and 
sterilization and the welfare of the women and the poor and the 
disabled. He is best known for exposing massive abuses in 
official family planning policy, often involving violence and 
forced abortions. Imprisoned unjustly and tortured, first in 
prison and then under house arrest, he finally escaped house 
arrest in his rural town in east China, Shandong Province, and 
made it to the U.S. Embassy in Beijing, a legendary escape, the 
kind of stuff that super heroes are made of. The world watched 
and after negotiations, he was allowed to come to the U.S. and 
began a law fellowship at New York University. He recently 
became a distinguished senior fellow in human rights at the 
Witherspoon Institute in Princeton as well as distinguished 
visiting fellow at the Institute for Policy Research and 
Catholic Studies at the Catholic University of America and also 
a distinguished senior advisor at the Lantos Foundation for 
Human Rights and Justice.
    We will then hear from Pastor Bob Fu who was a leader in 
the 1989 democracy movement in Tiananmen Square and later 
became a house church pastor and founder along with his wife. 
In 1996, authorities arrested Pastor Fu and imprisoned them for 
their work. After their release, they escaped to the United 
States in 2002, founded the ChinaAid Association. ChinaAid 
monitors and reports on religious freedom in China and provides 
a forum for discussion among experts on religion law and human 
rights in China. Pastor Fu is frequently interviewed by media 
outlets around the world. He has an incredible understanding of 
the Chinese dictatorship, but he also, amazingly, prays for not 
just the victims, but also for the tormentors and loves them 
both. Absolutely an amazing man.
    We will then hear from T. Kumar who is the Amnesty 
International Director for International Advocacy and a very 
good friend of this subcommittee. He has testified before the 
U.S. Congress on numerous occasions to discuss human rights 
abuses around the world. He has served as a human rights 
monitor in many Asian countries as well as in Bosnia, 
Afghanistan, Guatemala, Sudan, and South Africa. He also served 
as director of several refugee ships and camps. T. Kumar was a 
political prisoner for over 5 years in Sri Lanka for his 
peaceful human rights activities. Amnesty International adopted 
him as a prisoner of conscience and now he does that for others 
and he does it so well. He started his legal studies in prison 
and eventually became an attorney at law and devoted his entire 
practice to defending political prisoners.
    Ms. Zhang, if you would proceed.

       STATEMENT OF MS. ZHANG QING, WIFE OF GUO FEIXIONG

    [The following testimony was delivered through an 
interpreter.]
    Ms. Zhang. Honorable Chairman, Vice Chairman, Congressmen, 
and everyone here, I am the wife of Guo Feixiong. My name is 
Zhang Qing. I am very thankful to every one of you to have this 
opportunity to introduce my husband's case to you, and also I 
am glad to tell you about my husband's activities in defending 
human rights, his ideals and personality, and his character.
    In today's China, actually human rights continues to 
deteriorate. In the new round of government crackdowns on human 
rights movements, my husband has been detained for the fourth 
time. The charges were for motivating people for illegal 
gathering. In 2009, he publicly made a speech demanding for the 
freedom of expression in China. He believes that, in the West 
or in the East, the freedom of expression is the basic human 
right. There has never been any legal due process for my 
husband's case after he got arrested.
    His lawyers and family members have been denied access to 
visit him, and it has been 83 days now. And we cannot see the 
end of this case. We don't know how long this will last. We 
don't know what will happen to him if the international 
community will not show their concern to this case. My husband, 
Guo Feixiong, was involved in the pro-democracy movement in 
2003 and got arrested for the first time in 2005. In 2005, he 
was speaking out for the farmers who were losing their land 
because of government illegal seizure.
    In 2006, he came to the States to attend a law conference. 
Many people actually advised him to stay in the United States, 
but when he looked at the democracy and freedom in this 
country, he made a commitment to bring back the ideals for 
freedom of expression and democracy back to the Chinese people. 
So he went back.
    He was clearly aware of the possibility that he would be 
arrested again if he would return, but he still made the 
decision to return. It has been 10 years since the year, 2003, 
he got involved in pro-democracy movements. He has spent 5\1/2\ 
years in jail. He has always been the most frontier fighting 
for democracy movements. He does not only promote the theory of 
democracy movements, but actually he is a doer for these 
movements.
    He has made a huge impact upon the pro-democracy movement 
in China. He has composed more than 40 articles summarizing and 
thinking about the pro-democracy movement in China. And it is 
because of all his activities that the government now is 
torturing him in jail. He has been in jail four times and has 
been tortured physically severely. Even other family members 
have been tortured as well.
    One of the horrible tortures is that the policemen used 
electric rod to torture his genitals. They appealed to this 
torture to crack down, to crush his will for democracy and for 
freedom. But he will never change his commitment. So he will 
never surrender to such pressure and he is really, truly a 
model fighting for democracy and freedom.
    He has been on a hunger strike for more than 100 days. He 
is regarded highly as a hero by the Chinese society as 
defending human rights.
    In 2011, after 5 years being tortured in jail, but he 
continued his human rights activities asking Chinese Government 
to give back the freedom of expression to the Chinese people. 
And he organized a series of activities for the human rights 
cases. He asked the Chinese Government to approve the covenant 
of the human rights, that is the covenant of the United Nations 
and asking Chinese officials to publicly tell public their 
properties.
    In 2006 and this year, in both crackdowns of the Chinese 
Government upon the human rights movement, and my husband Guo 
was the one that has been tortured mostly and has been treated 
illegally all the time. So I am here today to ask the Obama 
administration to speak on my husband's case. I ask the Obama 
administration and American officials to speak openly for my 
husband and ask the Chinese Government to release my husband 
without any condition.
    I also appeal to American Congress that it is within your 
power and you can do something for my husband and to talk to 
the Chinese Government and to express your concern. And then to 
ask the Chinese Government to release my husband.
    I also ask American Embassy to China to meet my husband 
because both lawyers and family members are denied the right to 
visit him.
    America is the leading country for the human rights in this 
world. It serves as a lighthouse for the whole world. So the 
American administration and Congress have the obligation to 
support those who fight for human rights in China. So I also 
ask American administration and American Congress to talk and 
put pressure upon Chinese Government to release all those who 
are prisoners of conscience. Thank you.
    [The prepared statement of Ms. Zhang follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you so very much for that extraordinarily 
powerful testimony and we will follow up. We will do a letter. 
We will include the entirety of this hearing record to 
President Obama, to Secretary Kerry, and to Ambassador Gary 
Locke, our Ambassador to People's Republic of China and other 
interested parties within the administration and we will 
contact the Chinese ourselves as a committee. So thank you for 
those very tangible follow-up things for us to do. I do have 
questions for later, but now we'll go to Ms. Yang.

    STATEMENT OF MS. YANG TIANJIAO, DAUGHTER OF GUO FEIXIONG

    Ms. Yang. Dear Honorable Chairman, Members of Congress, and 
friends, my name is Yang Tianjiao and my American name is Sara. 
My dad is Guo Feixiong. I am here to thank the Congress and 
Congressman Smith for giving me this opportunity to speak here.
    The last time I saw my dad was about 7 years ago. It was in 
2006, and I was only 10. I remember that he brought me this 
video game, and we played it almost every day during that 
summer. However, on September 14th, when I came back from 
school, he was gone, and I have not seen him since that day. I 
did not even have a chance to say ``Bye'' or ``I love you'' to 
him.
    Over the past 7 years, I have dreamed about him a lot. I 
dreamed that he would play that video game with me again so we 
could pass level 5 together. But they were only dreams. The 
next day I always found myself in tears.
    I got to know about my dad's condition from my mom's 
conversation with friends. My mom would not talk about my dad's 
news in front of me because she thought it was too heavy for a 
10-year-old girl to accept. But I still listened to them 
anyway, and to be honest, they were extremely heavy, sad, and 
shocking. I heard that he was incarcerated for 5 years. During 
those 5 years, the government transferred him to many different 
places and used numerous different tortures against him. I was 
always so deeply hurt when I heard about them.
    In 2009, we moved to the United States of America. In 2011, 
my dad got out of jail. The day he was out, we talked on the 
phone. I literally cried when I heard his voice. I had been 
longing to hear this voice for 5 years, and I could finally do 
that.
    Over the past 2 years, I talked to my dad through Skype. He 
gave me advice for life, and I showed him my artwork. A few 
years ago, I drew my dad in a miniature cartoon form, and he 
immediately complained about the one short leg and one long leg 
when he saw it. Recently, my art skills have improved so much 
that he applauded my artwork. However, he still pushes me to 
move forward; he still wants me to draw like some of the most 
famous and brilliant artists like Da Vinci, Michelangelo, et 
cetera.
    But the good times did not last long. He was captured, 
again, on August 8th, 2013. That hurt. That day was Father's 
Day in China. Again, I do not remember our last conversation. 
Again, I did not get to say a formal goodbye to him. Again, I 
have not heard his voice for about 70 days. Again, I miss him 
so much.
    Right now, I have a watercolor painting of my dad that I 
finished in September. I am sorry I did not bring it today. I 
hang it on my wall so that I can see his face every day. In 
this painting, he is smiling. In my memory that is what he 
looked like every day when we were together. Also, I composed a 
piano piece called ``The Cosmos.'' This is a piece for my dad. 
I would always laugh at my dad when he joked that he fell 
asleep to my piano playing.
    However, words, drawings, and music cannot express how much 
I miss him. My dad is a great man; he is my hero. He has helped 
so many people. He, a man who pursues democracy, works so hard 
to improve the law of China. I, his daughter, always want my 
dad to have the freedom that he works so hard to achieve for 
others. I always want him to be safe and free.
    President Obama, you also have two daughters; you are also 
a human rights lawyer. I wish that President Obama can send a 
request to China to free my father. I do not know what has 
happened to him in jail for the past 2 months. I am so worried 
about his health, so I hope that the Congress will talk to the 
Chinese Government and secure my father's freedom.
    Thank you very much.
    [The prepared statement of Ms. Yang follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Yang, thank you so very much for that 
testimony. Tears, deep hurt, and the watercolor painting of him 
smiling on your wall. Those are so touching and I hope that the 
President, the Vice President, our own leadership here in the 
House and Senate will act. We certainly will as a subcommittee. 
We will do everything we can to secure your father's release 
and your testimony is so moving. No one can hear that and not 
be moved. So thank you, and to your mom as well.
    We do have some difficulties still, but we are going to 
have to switch to audio only although we will keep the visual 
as long as we can to hear the great Chen Guangcheng testify. So 
I would like now to yield to Mr. Chen. Hearing no objection, we 
will just go to audio and we will proceed.
    Bob Fu will now use a cell phone in a way that he did twice 
when Mr. Chen was in a hospital under arrest. He couldn't leave 
obviously. The hospital room was filled with Chinese police. 
Bob Fu got through to him and that is where he made his famous 
appeal to come to the United States, and within hours he was 
given approval.

STATEMENT OF MR. CHEN GUANGCHENG, CHINESE HUMAN RIGHTS ACTIVIST 
                (APPEARING VIA VIDEOCONFERENCE)

    [The following testimony was delivered through an 
interpreter via cell phone.]
    Mr. Chen. Dear Honorable Chairman, honorable members of the 
human rights subcommittee and friends, greetings to all of you.
    Human rights fighter Mr. Guo Feixiong has been detained for 
83 days now. It has been eight times that the Chinese 
Government has denied his basic rights to see a lawyer. This is 
a clear violation of Chinese own laws and citizens' basic civil 
rights. We have no idea whether he is alive or he is dead.
    In 2005, Guo Feixiong, Gao Zhisheng, and I were persecuted 
by the Chinese Government almost at the same time. And today, 
Gao Zhisheng is still in jail and his family members are 
forbidden to visit him. Guo Feixiong was arrested again only 
after he was released less than 2 years ago from his last 
imprisonment. So today, the communist party is showing the 
whole world it has no idea to change and will continue to fight 
against human rights. So we shouldn't have any illusions toward 
the Chinese Communist Party any more.
    The trial of Ms. Liu Ping, Mr. Wei Zhongping and Li Sihua 
in Jiangxi yesterday is deemed by the citizens in China as the 
evil trials against the good. In the name of social stability 
maintenance, a number of citizens, petitioners, and activists 
were kidnapped, tortured, and arrested. The lawyers who were 
supposed to represent the three activists on trial were forced 
to cancel their legal contract with their clients because they 
couldn't meet up with their clients.
    A report released by the Freedom House last week shows the 
crackdown against freedom of speech, Internet freedom, and 
media censorship in China has already extended beyond China's 
borders. This crackdown actually started this spring and since 
then more than 150 people got arrested. The communist regime is 
really only using this trial against these three activists in 
Jiangxi as a test to the international community to see how we 
will respond, and then I believe it will get worse and worse if 
we don't respond to take the proper actions. In his first 
arrest, Guo Feixiong was tortured severely. So this should 
really concern and worry everyone this time because he has been 
arrested for so long without any legal rights, and his lawyers 
and family members cannot visit him.
    And the freedom belongs to the brave people. And this 
illegal trial against these three innocent Chinese citizens 
really occasioned the strongest protest among the Chinese 
people. Nobody's rights will be guaranteed without a sound 
system. It is my hope that the United States of America and the 
international community will help assist the Chinese people in 
getting onto the path of freedom, democracy, and 
constitutionalism as soon as possible.
    The most urgent task before us is to achieve Internet 
freedom in China. The communist regime right now is undermining 
Internet freedom and restricts the free access of information. 
Internet censorship is overwhelming and a large number of 
Internet policemen are hired to censor, block, and delete 
postings online which is a blatant violation of the Universal 
Declaration of Human Rights according to Article 19. This 
article states that everyone has the right to seek, receive, 
and impart information and ideas through any media and 
regardless of frontiers.
    Hillary Clinton once stated clearly that the policy of the 
United States is to support an Internet that allows every human 
being equal access to knowledge, to thoughts, and dedicating 
itself to the promotion of Internet freedom. If this policy of 
the United States can truly be implemented, that will be a 
great contribution to the freedom in China as well as to the 
whole world. So right now it is high time we provide assistance 
to the freedom-loving people in totalitarian countries and tear 
down the Internet version of the Berlin Wall.
    Therefore, I suggest to all Congress and administration for 
every free nation to increase their funding to help develop 
some software so that we can break through firewalls such as 
FOE, Freegate, or Ultrasurf, which are all very effective. I 
learned that the U.S. Congress has a $700 million budget for 
this purpose, but only less than 3 percent is spent on breaking 
through China's firewalls. Therefore, it is very urgent for 
Congress to increase the budget for the Internet freedom in 
China.
    Secondly, it is my suggestion that the judicial and 
administrative organs must join hands in establishing a 
mechanism for human rights violators and it is hoped that we 
can stop them, set up a global database of human rights 
violators, including the ``610 Office'' of the Chinese 
Communist Party and the Family Planning Commission at all 
levels of government. Expand, establish, and strictly implement 
current laws similar to the Magnitsky Act, which prohibits the 
entrance of Russian human rights violators into the United 
States. And we need to freeze their assets in the United States 
and abroad, putting an end to the history of those vicious 
officials when they can enjoy the freedom overseas, like in 
America, while exercising their tyranny in their home country.
    So we need to set up a trans-congressional human rights 
alliance of free countries and convene regularly and invite 
civilians, human rights defenders, victims, their family 
members, and authorized agents to share their stories.
    So the people in the free world, we need to speak up and 
stand up for all those human rights fighters and to show our 
concern and to invite them to join hands and fight together.
    Fourthly, we need to demand the Chinese Communist Party to 
stop persecuting religious believers and respect religious 
freedom. One hundred and twenty Tibetan monks have immolated 
themselves. People in Xinjiang fighting against tyranny have 
been shot one after another. And we all know the persecution of 
Falun Gong practitioners as well as those underground house 
church Christians. They are all suffering from persecution. All 
the groups mentioned above, they all can get along with other 
Asians, Europeans, and Americans and earn their respect, yet 
why can't the Chinese Communist regime tolerate them?
    Fifthly, I call on lawyers and legal experts of the United 
States and the American Bar Association to advocate for human 
rights lawyers of China and make joint efforts to provide them 
with some specific legal support and assistance.
    Sixthly, I hope the annual U.S.-China Human Rights Dialogue 
will be practical in advancing human rights and dare to be open 
and honest. Human rights dialogues should not become a matter 
of formality and empty talk.
    And last, I also want to appeal to American people--and you 
voted all those officials and congressmen into office, so I 
appeal to you that you will talk to your congressmen and 
officials and apply all resources and means to help terminate 
China's evil one-child policy and forced abortion. Because to 
force women to abort their babies is a violation of universal 
human rights. It tramples on women's rights, the right of free 
choice, and also the sacred right of life. This wicked policy 
results in a severe imbalance in gender ratio and a rapidly 
aging population. So I plead earnestly with you kind-hearted 
American people to take actions right away. Contact your 
representatives and officials and ask them to show their 
concern to all the issues that is discussed above. Thank you, 
Chairman. Thank you, all the members of the human rights 
subcommittee, and thank you, everyone present at this hearing.
    [The prepared statement of Mr. Chen follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Chen, thank you very much for your eloquent 
testimony and for your very detailed list of actionable items. 
I wonder will you be able to stay with us or do you have to go?
    Mr. Chen. Yes, I can stay.
    Mr. Smith. Thank you. We will have questions after our 
final two witnesses.
    Mr. Smith. Mr. Fu, the floor is yours.

  STATEMENT OF PASTOR BOB FU, FOUNDER AND PRESIDENT, CHINAAID 
                          ASSOCIATION

    Mr. Fu. Thank you, Mr. Chairman, and thank you for your 
years of leadership and support for this very important cause 
for freedom not only in China, but also globally as a voice for 
this voiceless and for this oppressed people.
    Today, when I entered into this room I felt both gladly and 
sadly. I am glad that we still have congressional leaders like 
you, like other members, who are still concerned and support 
this cause, although it is not a popular cause anymore, with 
the decline of economic prosperity and economic stake in the 
global forum.
    I am sad because 4 years after Guo Feixiong's wife and two 
children were able to come to the United States and we're still 
talking about Guo Feixiong's freedom. I still remember in 2009 
in a small hotel in Bangkok, I flew there because I heard Ms. 
Zhang Qing with her two kids had to escape from China because 
they could not live a normal life anymore when Guo Feixiong was 
in prison, was tortured and the kids could not even find 
opportunity to get their education. The wife could not even 
find a right job for her. Increasing incredible obstacles 
including the denial of refugee status from the United Nations, 
including refusal to help by the U.S. Government officials, and 
I already booked my return flight to the United States. I was 
waiting to continue to file petition or appeal to the U.N., but 
seeing and looking in the eyes of these two kids, including Ms. 
Yang, Sara, who is sitting next to me, full of reluctance and 
fear, and seeing, watching that little boy, was playing with me 
and really begging me to stay with him to play with him. I just 
could not leave them behind.
    Of course, as a friend and fellow freedom fighter, I would 
not leave his family members behind by coming back alone even 
if that means I have to take what some people call radical 
procedures, between the letter of the law and my own 
conscience. So I took them to the United States with some 
extraordinary procedures, which is written in my memoir, 
``God's Double Agent.''
    I was happy to see the family finally need not worry about 
what would happen in the middle of the night, what would happen 
to the two kids when they walk in the darkness on the road to 
do shopping, what would happen to their dad in the middle of 
the night when they woke up.
    Of course, I want to thank many leaders of this country, 
especially many citizens in the great State of Texas, where I 
have been residing since 2004, and even today several members 
of the business community, religious community, flew all the 
way from Texas to come here to show their solidarity and their 
support for the freedom of Guo Feixiong. I want to recognize 
them. They are in the midst of this hearing. I want to 
especially thank Mr. Joe Torres, who is here as the chairman of 
the board of ChinaAid, as business leader, CPA. Of course, now 
the tax season is approaching and we all know this sacrifice he 
has encountered for engaging the ministry of ChinaAid by 
helping these families like Mr. Guo's family.
    I want to thank Pastor Chad Bullard, who was a former 
official of Homeland Security Department, now a pastor of 
6,000-member church who came here also to support the family 
where the Guo family are members of that church, Stonegate 
Fellowship.
    I also want to thank Pastor Daniel Stevens, on my left, who 
is my pastor and my fellow co-worker at Mid-Cities Community 
Church. I still remember that very day when I heard mother and 
children were wandering on the street. It was Guo Feixiong's 
family. I wanted to fly there immediately to Bangkok to comfort 
them, to find a place to stay, but we don't have a budget. So I 
just emailed Pastor Daniel. I said, could you help. Without 
hesitation, not a single question even was asked. The next day 
I was able to buy the most expensive air tickets, $5,000 to get 
to Bangkok, that enabled me to meet with these family members 
and comfort them and situate them in a hotel room.
    Mr. Chairman and members of this subcommittee, since the 
beginning of this year, the environment for freedom of speech 
in China has rapidly worsened. The Chinese Communist 
authorities have launched a campaign across China to strictly 
purge opinions voiced on the Internet and other peaceful public 
forums.
    Mr. Guo Feixiong's arrest was just one of the cases of 
arbitrary arrest. The official propaganda of the Chinese 
Communists severely criticized the democratic constitutional 
trains of thought. Besides, the Communist Party also severely 
suppressed the new civil citizen movement. According to 
incomplete statistics, from the protest incident to other 
peaceful petitioning, at least over 100 people across China, 
some even respected writers, estimated it may be thousands of 
Chinese citizens have been arrested for simply expressing 
themselves or for peaceful petitioning in front of the 
government.
    There has been a huge increase in the number of cyber 
police officers in China. The Golden Shield Project, the so-
called Great Firewall of China, strictly shield overseas Web 
sites that the Chinese Communists think are sensitive, and many 
netizens have been summoned or detained just because they 
talked about civil society, the constitutionalism, and they 
gathered in the same city and talk about the word democracy in 
their QQ chatting forums. The Chinese Government has trained 2 
million Web moderators or censors to delete posted messages and 
to ``guide public opinion.''
    In the past 4 months, the Chinese Communist Government has 
arrested public intellectuals, influential, even business 
leaders such as Yang Xiuyu, Zhou Lubao, Fu Xuesheng, and Dong 
Liangje, who is an environmentalist. So the purpose of this 
operation by the Chinese Communists is to warn and punish those 
influential public intellectuals so that the ordinary netizens 
will not dare to voice their opinions on political and social 
issues.
    And furthermore, it seems the Chinese Government tries to 
legalize and legitimize by the court system and the prosecution 
system all these crackdowns. And there is a joint document 
issued so-called ``Interpretation on Several Questions on the 
Applicable Law on Criminal Cases of Utilizing the Internet for 
Slandering.'' So nowadays, if the government or any police 
deemed a citizen who just used the Chinese version of Twitter 
to forward a message for public knowledge or raising the public 
awareness, if the forwarding has hit over 5,000 hits, it is 
called a case of ``serious circumstances that constitutes the 
crime of slandering.'' It is a crime for prosecution.
    Of course, there are a number of other arrests in 
suppressing those people who freely express themselves and 
peacefully fight for civil rights and those public 
intellectuals such as Dr. Xu Zhiyong, such as a billionaire who 
supports the freedom of expression, Mr. Wang Gongquan, such as 
Yuan Dong, such as Zhang Baocheng, such as Hou Xin, such as Ma 
Xinli. They were all arrested for simply making their opinion 
known without even taking much action on the street.
    Of course, the end of April, Ms. Liu Ping, Wei Zhongping, 
and Li Sihua of Xinyu City, Jiangxi Province whose trial was 
abruptly finished yesterday because of the arbitrary trial and 
basically the government assigned all these illegal procedures. 
And the lawyers had to withdraw themselves.
    So we have seen this since President Xi Jinping took power, 
the Chinese Government has become more severe in suppressing 
the rights defenders, restricting the freedom of speech, and in 
controlling the society.
    Of course, in other areas like the rule of law, like the 
religious freedom have also been worsened. So every day in 
China, there are thousands of incidents of forced demolition of 
houses and every year thousands or millions of people's 
properties are violated. As a result, there are dozens of 
millions of petitioners in China, many of them were forced into 
the ``Black jails'' which resulted in numerous occasions of 
torture and rape of women.
    The Chinese Communist Government continues to severely 
suppress the house churches. Of course, since April of this 
year, there are more Christians who have faced prosecution and 
received criminal sentence than the combination of the whole 
year last year. That has been happening from Henan Province to 
Inner Mongolia. And the house church Christians were sentenced 
from 2 years' to 7 years' imprisonment for simply organizing a 
peaceful worship service in their own homes.
    What has aroused the most concern recently is the incident 
in which Peking University dismissed Associate Professor Xia 
Yeliang, which shows the position of the Chinese Government in 
strictly controlling the freedom of speech. Professor Xia 
promoted China's reform toward democratic constitutionalism on 
the Internet. So the Peking University simply dismissed him.
    It is sad for us that the status of human rights and rule 
of law in China is seriously disconcerting. Without human 
dignity or basic human rights, the modernization of China is 
worthless. On the contrary, when China is headed toward the 
opposite direction of universal values, this doubtlessly poses 
a greater and greater threat to America and to the civilized 
world.
    I think China, instead of suppressing these brave soldiers 
for freedom, civil society, and democracy, should embrace them, 
these individuals like my friend Guo Feixiong, like my friend, 
Gao Zhisheng, like many others for still sitting in the dark 
prison such for simply hoping and advancing the very freedom 
that every human being are cherishing. I think they should be 
awarded. I think they should be embraced by the Chinese 
Government, certainly the Chinese people. That will make the 
21st century a safer and better and much greater place for us 
to stay. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Fu follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you so much, Pastor Fu. I can say that I 
remember when you first brought Mr. Guo's family to our 
attention on the subcommittee and how earnest you were that you 
would not cease until they were free. It has to be a source of 
at least some comfort, despite his horrific circumstances that 
he faces now, that his wife and children are safe and that 
attributable is to you.

STATEMENT OF MR. T. KUMAR, DIRECTOR OF INTERNATIONAL ADVOCACY, 
                     AMNESTY INTERNATIONAL

    Mr. Kumar. Thank you very much, Chairman and members of the 
subcommittee. Amnesty International is extremely pleased to be 
here to testify on this important issue.
    There are two issues that we are to consider in this. 
First, there is an individual who has been arrested for his 
peaceful nonviolent political activism. And the bigger picture, 
U.S. policies with China, the human rights policy with China, 
whether it is moving in the right direction or not.
    First of all, I would like to urge that my full testimony 
will be part of the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Kumar. Thank you very much. Why is Guo Feixiong singled 
out and in prison? There are thousands who have been 
imprisoned, but in his case a couple of issues stand out. He 
fought against corruption. He fought for transparency. He was 
part of a major new citizens movement that was fighting for 
justice and equality in China. He was fighting for media 
freedom by supporting media workers, press workers, against 
interference in the editorial policy.
    He also went to the other step of urging China to sign on 
to the International Covenant on Civil and Political Rights, 
ratify it, they have signed on, but did not ratify it yet. So 
we are seeing an individual here who has been fighting the 
fight for the needy and for justice. The results he received 
were that he was arrested, tortured, electric shocks were used, 
and he was earlier sentenced to 5 years in prison. Now he has 
been arrested again, again when he stood up against corruption. 
This time, for 2 months, for more than 2 months, no lawyers or 
the family members were allowed to see him. So it is basically 
an arbitrary detention that is taking place there.
    Despite all these things, what we are seeing from our 
administration is the pressure that is not up to the standard 
that we have seen earlier. As previously, one of the Members of 
Congress, the Commissioner, mentioned that after Most Favored 
Nation was given to China the leverage for U.S. has gone. We 
can see that is one of the major reasons China is not worried 
about U.S. making statements or speaking up.
    On this issue, we would like to bring to your attention an 
opportunity by which the U.S. can bring up the pressure in a 
meaningful way. As you are aware U.S. and China have two 
different dialogues going on. One is the annual U.S.-China 
Human Rights Dialogue which from our perspective, the Chinese 
don't take seriously. It is like a pro forma. Every year let's 
talk, okay, that is it. Nothing happens.
    There is a serious nature of the other dialogue that takes 
place, that is the economic and security dialogue. The 
Secretary of State attends. That is when Chen was imprisoned, 
Secretary Clinton was there for the dialogue. That is why I 
meant the timing was so good that a lot of attention.
    So what we are urging is that Congress should put pressure 
on the administration to make sure that economic and security 
dialogue, also include human rights. Until and otherwise, human 
rights become part and parcel of economic and security 
dialogue, whatever the U.S. says, it is not going to have any 
impact on Chinese.
    So let us see in a practical sense to add this and some 
actual policy. Secretary of State will be there when human 
rights is being discussed. They say when we raised the issue 
with the administration, they say we discussed the issue on 
human rights during the economic and security dialogue. So why 
are you so hesitant to call it economic, security and human 
rights dialogue. So we urge strongly that Congress take this as 
a serious issue and exert pressure and pass resolution so that 
next dialogue that takes place, the dialogue is economic, 
security, and human rights dialogue. That is when Chinese will 
feel the pinch because the economy and business is tied to 
human rights, security is tied to human rights there. Hopefully 
your action, the committee's action, and other actions will 
bring results, to Guo Feixiong's case, but we hope that the 
bigger picture of having a meaningful way so that U.S. can put 
pressure to fight for equal justice and for human rights in 
China also have an impact in China.
    Thank you very much for inviting us.
    [The prepared statement of Mr. Kumar follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Kumar thank you very much for that very 
practical incisive recommendation. I, too, have noted that 
human rights dialogue has almost been a cordoned-off exercise 
that they, the Chinese side, does not take seriously, even if 
the intentions on the U.S. side are very well intentioned. We 
are seeing the same thing replicated in Vietnam and elsewhere. 
It kind of puts it on the sidelines and it is not integrated 
with the security and economic issues so your point, I think, 
is extraordinarily well taken.
    As far as noting that the 18th U.S.-China Human Rights 
Dialogue took place on July 30th through the 31st and just a 
few days later, Mr. Guo was arrested again. So if there was any 
kind of impact, it certainly was not manifested toward him as a 
result of the human rights dialogue. I think your point is 
extraordinarily well taken.
    We are joined by Chairman Dana Rohrabacher. Chairman 
Rohrabacher, would you like to ask questions?
    Mr. Rohrabacher. Let me just make a note. I am sorry, I had 
three hearings at one time. I just came from a hearing on 
Afghanistan and if there is anything that should indicate to us 
that we should try to have a high standard on human rights, 
it's the situation we get caught in quagmires in different 
parts of the world. If the United States stands for human 
rights, and when we have individuals, brave, heroic 
individuals, like Guo Feixiong that what we are doing by 
supporting them is letting them struggle for freedom. It takes 
a burden off of our shoulders that we have to send our troops 
everywhere in the world to try to promote the cause of freedom. 
The fact is that by we supporting local people and their 
struggles for whatever tyrannical government they are under 
that is a way that it helps the people in the United States 
because then we no longer have to bear the burden of having to 
deal with that challenge. And with dictatorships, especially 
like China, a dictatorship the size of China that abuses its 
own people obviously has no respect for the rights of other 
people as well.
    If China does not respect the rights of its own people to 
the point that it won't murder them or torture them or as we 
have seen with the Falun Gong where they pick them up by the 
thousands and throw them into prison and actually murder them 
for their organs, if you have a government like that or--that 
that is a threat to all the decent people in the world. Because 
if they do that to their own people, what will they do to 
foreigners? So we who are foreigners to them, know that here is 
a threat of a ghoulish group of people who are willing to 
commit horrendous crimes against their own people and our first 
line of defense is to support those of you who are struggling 
against that tyranny.
    And Mr. Chairman, I am very honored always to sit with you, 
and to stand with you and the leadership you have provided on 
human rights issues. And especially with concern China in which 
as we say if China, if we can bring to a liberalization in 
China and support those people who are struggling, to have 
decent humane values in China, it will mean a great deal to the 
security of the United States and the rest of the world.
    So thank you and I thank those of you who are struggling to 
help these people in China and we just want to express unity 
with you, Mr. Chairman, and to these brave souls who are 
struggling for a better world.
    Mr. Smith. Chairman Rohrabacher, thank you so very much. I 
think our distinguished witnesses know that Chairman 
Rohrabacher, before he became a member of the House from 
California was a speechwriter for Ronald Reagan and was one of 
those who put into those speeches some of the most memorable 
and very enduring concepts concerning fundamental human rights 
and the freedom agenda so--and he has continued that ever since 
as an individual.
    Mr. Rohrabacher. Actually, the President was a great 
writer. I was just sort of helping out.
    Mr. Smith. But you wrote it too. Thank you so much. Let me 
ask a couple of questions and then we will go to Mr. Meadows.
    Mr. Chen Guangcheng made seven very specific 
recommendations and observations in his testimony, of course, 
focusing on Mr. Guo on his fight and his deep empathy and 
concern which we all share.
    But on one of those he talked about the importance of the 
Internet. And I will just note parenthetically that I have 
introduced and reintroduced several times legislation which is 
regrettably opposed by the Obama administration and that is a 
bill called the Global Online Freedom Act of 2013, H.R. 491, 
and Mr. Kumar, and Amnesty, and Reporters Without Borders, and 
many other organizations and NGOs have endorsed it and 
supported it over these many years. Part of the requirements of 
that legislation are to require Internet communication 
providers that are listed on the U.S. stock exchanges to 
disclose to the Securities and Exchange Commission their human 
rights due diligence and that means Chinese companies like 
Baidu and others would have to tell us what they are doing vis-
a-vis human rights and if they are, as we know they are, 
censoring ad nauseam. That, too, would have to be disclosed.
    It prohibits the export of hardware or software that could 
be used for surveillance, tracking, and blocking by governments 
of end-users in an ``Internet-restricting country,'' a new term 
that we invent in the bill based on a preponderance of the 
evidence that they are restricting the Internet and surveilling 
their own people. And there are other provisions as well.
    Mr. Chen mentioned Hillary Clinton's statement about the 
Internet and allowing all members of the human race equal 
access to knowledge and thoughts, but this administration 
opposes the Global Online Freedom Act. And it would give real 
substance, I believe, to an effort to say we mean it when we 
say we want the Internet to be free, that students in China and 
elsewhere, but especially in China and the general public, will 
have access to--unfettered access to knowledge and information.
    Secondly, Mr. Chen also mentioned a number of very 
important points, but one of them was about a Magnitsky type of 
piece of legislation. I think is an idea whose time has come, 
but we already have on the books a law that I wrote in 2000 as 
part of the larger piece of legislation that I was the author 
of called the Admiral James W. Nance and Meg Donovan Foreign 
Relations Authorization Act. And that is to say that anyone who 
is complicit in the barbaric one-child-per-couple policy and 
Chen Cuangcheng talks about it as being evil and wicked, which 
it is. It abuses women. There is no greater abuse of women's 
rights occurring the world and the legislation which is law on 
the books right now, it is not being enforced by the Obama 
administration and wasn't even enforced well by the Bush 
administration. It says that anybody who is complicit in those 
crimes is denied a visa to come to the United States.
    We asked the Congressional Research Service to look into 
this last year and found that less than 30 people were 
penalized by visa denial and we know that there are hundreds of 
thousands throughout China who are visiting this unbelievable 
agony upon women and destroying children and young babies, 
especially the girl child through sex selection abortion. So 
that is a law that has gone unimplemented by the Obama 
administration.
    We will redouble our efforts as we have done over and over. 
I asked the administration, ``What are you doing?'' ``Why 
aren't you implementing it?'' We get a big blank stare, but we 
will continue to try. But I thank you for raising the Magnitsky 
Act and I think as Mr. Kumar and so many others know, it does 
work when you hold individuals responsible for crimes in a 
regime that is called a dictatorship. It has a profound impact.
    I wrote a law back in 2004, the Belarus Democracy Act. The 
mainstay of that law was to hold Lukashenka and his other 
fellow repressors accountable in Belarus through visa denial 
and well over 200 people, it's a small country, have been 
denied visas to come to the United States and the Europeans 
have followed suit. So it a model and Magnitsky is working 
roughly, but it is working vis-a-vis Russia today.
    So I thank you for those very specific recommendations, Mr. 
Chen. If there are any further comments, and then I will go to 
Mr. Meadows, that any of our distinguished witnesses would like 
to make, you certainly laid out the case. We will follow this 
up with a letter to President Obama. We will include all of 
your testimony. We will ask him--he is a Nobel Peace Prize 
winner. He has gravitas the likes of which very few people have 
in the world to raise these issues and certainly now with 
President Xi Jinping moving aggressively in the other 
direction. It was already bad under his predecessor, President 
Hu, it has gotten worse as we all know. So there needs to be, I 
think, a revisiting of these issues by the administration.
    And again, Ms. Yang, your comments, everyone should read, 
as well as your mom's, should read those comments and see a 
mother and daughter testifying on behalf of their husband and 
dad with such eloquence and such class is so moving. There is 
so much love coming from you toward your father and your 
husband. And my hope is that that will further motivate all of 
us who often fall asleep and don't do enough to really make a 
difference. Our President needs to step up. Our Congress needs 
to step up and we need to do much more.
    And again Mr. Kumar, I love your idea of the human rights 
dialogues, well meaning, they don't work. We need to integrate 
it into the security and economic dialogues--and you are right, 
Secretary of State is there, and hopefully, Secretary Kerry 
will take these cases and take them seriously.
    So I would like to yield to any of you and then go to Mr. 
Meadows for any questions he might have. If you want to comment 
on any of that or I will go right to Mr. Meadows.
    [The following testimony was delivered through an 
interpreter.]
    Ms. Zhang. I have one question. On September 30th, I paid a 
visit to the Department of State and visited some officials 
there. So I made a request to the Department of State asking 
them to make a public announcement to ask the Chinese 
Government to release Guo Feixiong. But we have not seen 
anything that has happened. I really hope that the American 
Government can make an announcement.
    Mr. Smith. Could you reveal who it was that you spoke to or 
would you rather not do that, at Department of State?
    Mr. Fu. Zeya, Zeya. The Assistant Secretary, Zeya.
    Mr. Smith. Acting. Thank you. So you have reached out to 
the State Department and so far there has not been a response?
    Ms. Zhang. Yes.
    Mr. Smith. We will follow up as well. And I will say one 
statement does make for an intervention. My hope is that as we 
do on the Congressional-Executive Commission on China, because 
I am the co-chairman of that as well. We have a prisoners list. 
We advocate for those continuously for the release of political 
and religious prisoners, but we don't see a corresponding--I 
mean, our Ambassador Gary Locke, should be raising this. This 
should be a mainstay of our dialogue with China, not what is 
the next deal to sell more of our bombs or some other self-
interest. So thank you for that. Pastor Fu.
    Mr. Fu. I have a quick comment about a follow up about 
improving the U.S.-China Human Rights Dialogue, the mechanism. 
Although within our human rights communities we basically 
concluded with the same conclusion. As Chen Guangcheng put it 
nicely that the human rights dialogue has become a human rights 
empty talk. But you know, I remembered this May when I traveled 
with Chen Guangcheng to the European Parliament and we met with 
EU's highest human rights officer, the former Foreign Minister 
for Greece. And he, in a private setting, but he wants our 
secretary to know that when Chen Guangcheng was still under 
house arrest and when a diplomat tried to visit, and was beaten 
up, right outside his Dongzhou village. And instead of making 
public, obviously, diplomatic protest is warranted. The EU has 
waited until the next round of human rights dialogue next year 
and talk to the Chinese Government and said, ``Why do you beat 
up our diplomat over there?''
    So we are sort of very, very concerned on that very 
incident that Chinese sort of guards could beat up an EU, sort 
of the one of the most powerful sovereign country block could 
be--could keep silence for a fellow diplomat who was beaten. So 
after talking with Mr. Chen Guangcheng, of course, we were 
making suggestions to them, and I think it complied with the 
U.S.-China Human Rights Dialogue. One way to avoid becoming a 
show of empty talk is to make the human rights dialogue live 
streaming, to make it live broadcast. If they want to talk 
lies, actually the Chinese talk back to the EU and said, ``No 
Chen Guangcheng is free. We didn't beat up your diplomat. He is 
all right.''
    So I think the reason the Chinese regime can pronounce 
these blind--just lies so unshamefully is a closed door, under 
the table dialogue. If it is broadcast live, even part of the 
session when the people around the same table, when the Chinese 
people and the American people and the world know what they are 
talking about, then it is truly--it is a true dialogue. I think 
you will produce some truth, some result, so that is my 
comment.
    Mr. Smith. Thank you very much. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, and thank each of you 
for your testimony. I know it is very easy to get discouraged. 
The chairman has been fighting this fight for many, many years. 
But I can speak to his character and to his perseverance and I 
can tell you he is unyielding truly in his efforts to make sure 
that justice and fairness and compassion is something that we 
all revere not only here in the United States, but in China and 
other nations abroad. So I want to give you that encouragement.
    I am a little concerned because we continue to have 
hearings over and over again and we ask for action items and we 
try to take those action items and then not much happens with 
them.
    So Pastor Fu, let me make sure I understand you. You are 
saying that once we have these hearings, if we were to televise 
those live, that they might have some impact in terms of the 
human rights violations?
    Mr. Fu. That is right.
    Mr. Meadows. All right. We were in a hearing just the other 
day where we talked about some of the media and how the truth 
is just not getting out, not only in China, but it is really 
not getting out to us as well in terms of what is happening 
there with regards of media personnel within China, if they 
report negatively. Many times their visas do not get renewed or 
they get delayed for long periods of time. Wouldn't you agree 
that that is an accurate reflection of what is happening in 
China?
    Mr. Fu. I do not necessarily agree that that happens every 
time or all the time. And actually, as Chairman Smith and also 
Congressman Frank Wolf recalled, remember before the Beijing 
Olympics, I remember of course they are known critics of 
China's human rights record and when they applied for visas, 
yes, they slow down a little bit, but still give you visas. 
Yes, you still were able to get to China, right?
    I think these are peripheral concerns. I think the main 
concern, and as a former teacher who used to teach in the 
Chinese Communist Party school, I know the Communist Party's 
mentality is actually the weaker, or the more you yield, the 
weaker you show to them, actually, the more they feel they are 
empowered or more aggressive.
    Mr. Meadows. So what you are saying is we need to take a 
more forceful hand in terms of the penalties of not complying, 
that we need to set laws and the State Department needs to be 
more forceful in terms of the potential consequences?
    Mr. Fu. Absolutely. It is, after all, this is two the great 
powers and it is not--nobody wants to have a mutual 
destruction.
    Mr. Meadows. Right.
    Mr. Fu. But at the same time, you cannot forget our very 
fundamental values that form this country by just ignoring or 
just silencing or put human rights under the table to 
modernizing this very important fundamental issue.
    Mr. Meadows. All right. Let me ask you perhaps a more 
difficult question. Do the Chinese people as a whole see us as 
being critical of human rights, being synonymous with us being 
critical of them as the national country or their economic--do 
they see those as when we are critical of human rights, being 
critical of them as a people?
    Mr. Fu. Although the Chinese Communist Party propaganda 
mission wants to make the Chinese regime, the Chinese Communist 
Party
    Mr. Meadows. One and the same.
    Mr. Fu. Yes, with the Chinese people, try to mess up the 
idea, I think the Chinese people can make that distinction. It 
is really the Chinese regime who carry out this repressive 
policies. It is the brutal policies that is used by the 
torturists who tortured Mr. Guo Feixiong and Mr. Chen 
Guangcheng. So I think the Chinese people commit with 
distinction. Like even with today's hearing, with the social 
media and the Chinese Internet, there will be meetings with 
Chinese people who will know and who will even many will find 
the video.
    Mr. Meadows. So what you are saying is the Chinese people 
would know that the Members of Congress have a warm feeling 
toward them. We just condemn the actions of these human rights 
violations?
    Mr. Fu. There are not only, of course, not only warm 
feelings, but they know that they are not fighting for freedom 
alone. They know you are in solidarity, their American 
friends----
    Mr. Meadows. Okay.
    Mr. Fu [continuing]. A thousand miles away who are 
concerned about their prisoners, about their fellow relatives 
who are arbitrarily arrested.
    Mr. Meadows. Okay. Mr. Kumar, let me go to you. Because in 
previous testimony and then I heard it again as a recurring 
theme today, you talked about the need for the State Department 
primarily to tie human rights and the economic viability, those 
together. Obviously, we haven't done a very good job of that to 
date. And we have had a lot of rhetoric, although I do believe 
the State Department has a sincere desire to affect human 
rights. It is a balancing act. Many times, they look at the 
economic impact versus human rights in trying to evaluate those 
two.
    How do we do a better job of tying those two together in 
terms of--would it be to look at denying visas? How can we do 
that in terms of making a real impact?
    Mr. Kumar. I would anticipate that the Chinese Government 
take economic and security dialogue very, very seriously. It's 
the highest level. Secretary of State from our side, and the 
Foreign Minister of Chinese come together and discuss issues. 
They discuss economic issues and security issues together. They 
are tying those together.
    Mr. Meadows. Okay.
    Mr. Kumar. But they are not tying human rights into that 
mix. They are having the human rights dialogue separate from 
that. That's why we are urging that human rights be part and 
parcel of this economic and security dialogue, not stand alone. 
When you do it stand alone, they will come, they will talk, but 
the pinch is not there. They are not getting the pressure. The 
only way they will take human rights seriously.
    Mr. Meadows. So how do we do that? How do we take human 
rights and make a penalty for not complying? Because the 
chairman and I have been in meetings with groups from China, 
part of Chinese Government and their comment to the chairman 
and to me was, ``We are making great progress and that you are 
just misinformed,'' is essentially what they told Chairman 
Smith, that he was misinformed, that they were making great 
strides.
    So how do we tie those two together?
    Mr. Kumar. You know, the point is if they have made any 
strides, of course, there are certain areas like death penalty, 
they have made some improvements. Earlier it was 80% of the 
world's executions were taking place in China. Until China 
changed due to lot of pressure from outside and also inside to 
make sure that there is another review before someone is 
getting executed by the Supreme Court. Because that reason, the 
death penalty drops to 50%, even though it is still the highest 
in the world. All the countries put together, it is the 
highest.
    The issue of how to make change from U.S. in this case. The 
only country, by the way Congressman, that China will take 
seriously is the U.S. The only superpower left and they want to 
have good relations with the U.S. They don't want to burn 
bridges for something they can't do. Which is for their own 
interest, that's the U.S. So our suggestion is that human 
rights issues should be tied to these two issues, economic and 
security issues. Sanctioned issues are slightly different. When 
you--every year when they have a dialogue like with the Most 
Favored Nations, every year they will have to debate in 
Congress and at that time all kinds of human rights issues are 
debated. Then Congress authorizes it.
    If the human rights situation goes down, Chinese fears they 
may not get the Most Favored Nation status renewed. That's, you 
know, the liberty that was dropped, actually under the Clinton 
administration that was dropped.
    So the other alternative we are seeing is there is another 
dialogue taking place even though there is no sanction related, 
the mere fact the highest levels of U.S. administration in the 
foreign ministry, that's the Secretary of State. In this case, 
Secretary Kerry will be there raising the issues, not a human 
rights bureau or another human rights bureau. There is one good 
example we have to see. Qing's case, Qing who testified. 
Secretary Clinton was there for the economic and security 
dialogue, so when the whole issue blew up there and, you know, 
your hearings, Mr. Chairman, I also testified when he was 
making his appearance by phone from his hospital bed, that put 
pressure on Secretary Clinton to have some decision. And in 
turn they exert pressure and we have seen him released.
    So what it shows is if the pressures goes in a meaningful 
way in the highest levels that it will have some impact.
    Mr. Meadows. So you are saying that at the Secretary level 
or the Under Secretary level and just make sure that they are 
at those high levels?
    Mr. Kumar. High level, but the way you tie is you tie human 
rights with economic and security dialogue. That's when they 
will take it seriously. That's me saying we raised it, the 
administration is reluctant, they know the Chinese will not 
like it.
    Mr. Meadows. Mr. Chairman, if you will indulge me for one 
more question, if that would be all right? I assume that it is.
    One of the understandings that I have is when we have 
events, whether it be arrests or whether it be rebellion, 
whether it be a protest, that social media and everything 
lights up, it flickers up. And then at that particular time 
that there is, you know, just an oppressive--on the Internet 
freedom it gets--really, there has to be a desire to jump the 
firewalls, so to speak, to allow that message to continue to 
get out.
    We heard the other day, or I heard in a briefing the other 
day, that once we jump the firewall that many times they are 
subject to cyberattacks, almost instantaneously at the same 
time. Again, to suppress the freedom of the press or the 
freedom of speech from sharing that.
    Would you agree that that is a significant problem, and if 
we could address that with additional server capacity would 
that help the Chinese people share the story? Either one of 
you, Pastor Fu or?
    Mr. Fu. Yes, I think the public meeting and also a 
statement mentioning specific names, I think that will really 
demonstrate to leadership, you know, like the case of Chen 
Guangcheng, like the Guo Feixiong. You know, I remember months 
ago with Jared Genser, the president of Freedom Now, who 
actually yesterday had an op-ed in The Washington Post. We 
together met with President Obama's top human rights officer 
near the White House, and basically our key demand our or key 
point is President Obama, you know, he can just basically use 
his presidential leverage to tell--or even privately 
communicate with the Chinese, even face-saving matters, say, 
look, this is a concern, not only to me but to the American 
people, you know, the torture, the arbitrary arrests, you know, 
with Guo Feixiong and the Nobel Peace winner, Liu Xiaobo, and 
of course, Mr. Guo Feixiong. I mean, all these cases, and their 
family members are here. They are at the door of the White 
House and if you don't release them I will meet with them.
    And in fact, the Speaker of the House, John Boehner, and 
the Minority Leader, Nancy Pelosi, twice already, I know for a 
fact, that along with several committee chairmen, including 
Chairman Smith, wrote letters to President Obama, asking him to 
meet with Guo's wife, asking him to meet with Chen Guangcheng. 
And so far not even a Cabinet-level member has ever even met 
with the family members. I think the Chinese are watching. The 
Chinese, of course, are observing whether that is the priority 
within the administration.
    Mr. Meadows. Perhaps we can call on the President's 
compassion for people and encourage that even today. But I 
thank you.
    Mr. Chairman, I yield back. I appreciate your indulgence.
    Mr. Smith. Mr. Meadows, thank you. Yes, Mr. Fu?
    Mr. Fu. I just want to correct on record, I think I got to 
know the Acting Assistant Secretary, Ms. Zeya. She did mention 
Yang Maodung's name last week at China's U.N. UPR review in 
Geneva. So that is the only name mentioned by any other 
country. Of course, the Chinese Ambassador rejected that 
immediately. So I wanted to keep that record straight.
    Mr. Smith. Thank you. I think we do have votes--yes, Ms. 
Zhang?
    [The following testimony was delivered through an 
interpreter.]
    Ms. Zhang. I am very thankful to Chairman Smith. You gave 
us this opportunity on my husband, Guo Feixiong's behalf. I 
hope that this hearing can produce some positive result to help 
my husband. And I hope that Congress and the administration can 
work together for the earlier release of my husband.
    Mr. Smith. Ms. Zhang, thank you so much. Again, your 
bravery and that of your daughter just mirrors that of your 
husband and it's an inspiration to all of us.
    You know, we begin every single session of Congress with a 
prayer. I think it would be most fitting, especially now since 
the cruelty in China has escalated, and it has already been bad 
for so long and many of you have suffered from it, Pastor Fu, 
but it would be very appropriate if Pastor Fu, if you could 
just lead us in a very brief prayer for the freedom of this 
wonderful husband and father, Guo Feixiong, and others who are 
suffering the barbarity of this regime in Beijing. If you could 
just lead us in that, and that will be the close of this 
hearing.
    Mr. Fu. Dear heavenly father, we thank you for this 
wonderful opportunity to testify for the truth about freedom, 
about democracy, about all these brave spirits, that we know 
that every human being is created with your image which gives 
us the true source of dignity and equality and justice. So as 
we are created equal, we can seek justice and justice for all. 
Lord, we thank you for this great country, a country that has 
been founded by the Founding Fathers with this great 
Constitution, with the guarantee of freedom of religion, 
freedom of assembly, freedom of speech. Lord, we cannot take 
this for granted, because, as your servant, Martin Luther King 
said, ``Injustice anywhere is the threat to justice 
everywhere.'' Lord, may you lead us to be a voice for the 
voiceless, because in the end those victims, those who are 
silenced, will remember not the words of enemies, but the 
silence of their friends. Lord, may you use this panel, use the 
Members of Congress, use the leadership of the great United 
States of America and use the leadership of President Obama and 
Secretary of State John Kerry to be a vehicle to not only 
advance the business, trade interests of America, but more 
importantly advance the freedom, democracy, and the human 
dignity, the value of these universal imperatives throughout 
the world. At the end of the day, we do not live by food and 
water and worldly entertainment only, but more importantly, we 
live to glorify you and to love our neighbor and to love each 
other. May you grant freedom for Guo Feixiong sooner. May you 
grant freedom of Gao Zhisheng sooner. May you grant freedom of 
many others sooner using us. We pray all this in Jesus' name. 
Amen.
    Mr. Smith. The hearing is adjourned.
    [Whereupon, at 4:31 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
